No. 629P01-8

SIXTEEN-B DISTRICT

Supreme Court of JBtortf) Carolina
STATE OF NORTH CAROLINA
v
JOHN EDWARD BUTLER
From N.C. Court of Appeals
( P14-558 P15-886 P18-27 )
From Robeson
( 89CR22354 89CR22377 89CR18633 )

ORDER

Upon consideration of the petition filed by Defendant on the 16th of May 2019 in this matter for a writ of _
. ■ certiorari to review the order of the Superior Court; Robeson County, the following order was entered and is hereby
certified to the Superior Court of that County:
“Denied by order of the Court in conference, this the 20th of May 2019."
Davis, J. recused
s/ Earls, J.
For the Court
The following order has been entered on the motion filed on the 16th of May 2019 by Defendant to Proceed
In Forma Pauperis:
"Motion Allowed by order of the Court in conference, this the 20th of May 2019."
Davis, J. recused
s/ Earls,- J.
For the Court
The following order has been entered on the motion filed on the 16th of May 2019 by Defendant to Appoint
Counsel:
"Motion Dismissed as moot by order of the Court in conference, this the 20th of May 2019."
Davis, J. recused
s/ Earls, J.
For the Court
Upon consideration of the petition filed by Defendant on the 16th of May 2019 in this matter for a writ of
mandamus, the following order was entered and is hereby certified to the Superior Court, Robeson County:

“Denied by order of the Court in conference, this the 20th of May 2019."
Davis, J. recused
sI Earls, J. For the Court
WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 20th day of May 2019.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina

e

M. C. HacknevL-—
Assistant Clem, Supreme Court Of North Carolina
Copy to:
North Carolina Court of Appeals
Mr. John Edward Butler, For Butler, John Edward
Ms. Kathleen N. Bolton, Assistant Attorney Genera), For State of N.C. - (By Email)
Mr. L. Johnson Britt, III, District Attorney
Hon. Shelena G. Smith, Clerk
West Publishing - (By Email)
Lexis-Nexis - (By Email)

Jlorth Carolina Court of Appeals
Fax: (919) 831-3615
Web: https://www.nccourts.gov

DANIEL M. HORNE JR., Clerk
Court of Appeals Building
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600

Mailing Address:
P. O. Box 2779
Raleigh, NC 27602

No. COAP18-27-1
JOHN EDWARD BUTLER
VS.
STATE OF NORTH CAROLINA
From Robeson
89CR22354 89CRS18633 89CRS22377
ORDER
PETITION FOR WRIT OF CERTIORARI TO REVIEW ORDER OF SUPERIOR COURT filed on the .
16th of May 2019 was denied by order of the North Carolina Supreme Court on the 20th day of May 2019,
and same has been certified to the North Carolina Court of Appeals.
IT IS THEREFORE CERTIFIED to.the Clerk of Superior Court, Robeson County, North Carolina that
the North Carolina Supreme Court has denied the PETITION FOR WRIT OF CERTIORARI TO REVIEW
ORDER OF SUPERIOR COURT filed by the Defendant in this cause.
WITNESS my hand and official seal this the 21st day of May 2019.

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

Copy to:
Attorney General, For State of North Carolina
Mr. John Edward Butler, Pro Se, For Butler, John Edward

SUPREME COURT OF NORTH CAROLINA
Amy Funderburk, Clerk
2 East Morgan Street
Post Office Box 2170
Raleigh, North Carolina 27602
(919) 831-5700
FAX: (919) 831-5720

April 4, 2019
John Butler, 0059727
Orange Correctional Institution
PO Box 1149
Hillsborough, NC 27278
Dear Mr. Butler:
The Supreme Court Clerk’s Office has received your letter dated March 29, 2019, requesting
assistance in your case. A copy is enclosed.
We have no record of any appeal being filed in our office on your behalf. You may want to check
with the Court of Appeals in the event your petition for writ of certiorari was filed with that Court.
Although you may file an appeal on your own behalf, you may wish to contact the following for
assistance:
Prisoner Legal Services,
P.O. Box 25397,
Raleigh, North Carolina 27611
Prisoners’ Rights Project,
UNC School of Law,
Van Hecke-Wettach Hall, CB# 3380
Chapel Hill, North Carolina 27599

Prisoners’ Rights Project
Duke University School of Law
Durham, North Carolina 27706

Should you wish to send your documents to our office, the mailing address is as follows:
Clerk of Supreme Court of North Carolina
PO Box 1841
Raleigh, NC 27601
Please be advised that your documents will not be returned to you. You should make copies prior
to mailing to the Supreme Court.
We hope this information is helpful to you.
Sincerely,
The Clerk’s Office

SUPREME COURT OF NORTH CAROLINA
Amy Funderburk, Clerk
2 East Morgan Street
Post Office Box 2170
Raleigh, North Carolina 27602
(919) 831-5700
FAX: (919)831-5720

June 11, 2019
John Butler, #0059727
Randolph Correctional Institution
Box 4128
Asheboro, NC 27204
Dear Mr. Butler:
Your petition for writ of certiorari to review order of the North Carolina Court of
Appeals which you filed on May 16, 2019, was denied by this Court on May 20, 2019 (order
enclosed). After conference, the Court issues the rulings and informs the Clerk’s Office. The
Court simply allows or denies the appeal/petition without written explanation. We then
prepare copies of the order and distribute to the appropriate parties.
We hope this information is helpful to you.
Sincerely,
The Clerk’s Office

•

No. 629P01-8

SIXTEEN-B DISTRICT

Supreme Court of J^ortl) Carolina
STATE OF NORTH CAROLINA

v
JOHN EDWARD-BUTLER
From N.C. Court of Appeals
( P14-558 P15-886 P18-27 )
From Robeson
( 89CR22354 89CR22377 89CR18633 )

ORDER
Upon consideration of the petition filed by Defendant on the 16th of May 2019 in this matter for a writ of
certiorari to review the order of the Superior Court, Robeson County, the following order was entered and is hereby
certified to the Superior Court of that County:
"Denied by order of the Court in conference, this the 20th of May 2019."
Davis, J. recused

, .
s/ Earls, J.
For the Court

The following order has been entered on the motion filed on the 16th of May 2019 by Defendant to Proceed
In Forma Pauperis:
"Motion Allowed by order of the Court in conference, this the 20th of May 2019:"
Davis, J. recused
s/Earls, J.
For the Court
The following order has been entered on the motion filed on the 16th of May 2019 by Defendant to Appoint;
Counsel;
"Motion Dismissed as moot by order of the Court in conference, this the 20th of May 2019."
Davis, J. recused
s/ Earls, J„
For the Court
Upon consideration of the petition filed by Defendant on the. 16th of May 2019 in this matter for a writ of
mandamus, the following order was entered and is hereby certified to the Superior Court, Robeson County:

"Denied by order of the Court in conference, this the 20th of May 2019."
Davis, J. recused
s/ Earls, J.
For the Court
WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 20th day of May 2019.

Amy L. Funderburk
Clerk, Suprefne Court of North Carolina

e

M. C. Hackneyp"----Assistant Glorac, Supreme Court Of North Carolina
Copy to:
North Carolina Court of Appeals
Mr. John Edward Butler, For Butler, John Edward
Ms. Kathleen N. Bolton, Assistant Attorney General, For State of N.C: - (By Email)
Mr. L. Johnson Britt, III, District Attorney
Hon. Shelena G. Smith, Clerk
West Publishing - (By Email)
'
Lexis-Nexis - (By Email)

L .

Jiorth Carolina
Court of appeals
DANIEL M. HORNE JR., Clerk

Fax: (919) 831-3615
Web: https://www.nccourts.gov

Court of Appeals Building
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600

Mailing Address:
P. 0. Box 2779
Raleigh, NC 27602'

No. COAP18-27-1
JOHN EDWARD BUTLER

VS.
STATE OF NORTH CAROLINA
From Robeson
89CR22354 89CRS18633 89CRS22377

ORDER
PETITION FOR WRIT OF CERTIORARI TO REVIEW ORDER OF SUPERIOR COURT filed on the
16th of May 2019 was denied by order of the North Carolina Supreme Court on the 20th day of May 2019,
and same has been certified to the North Carolina Court of Appeals.
IT IS THEREFORE CERTIFIED to the Clerk of Superior Court, Robeson County, North Carolina that
the North Carolina Supreme Court has denied the PETITION FOR WRIT OF CERTIORARI TO REVIEW
ORDER OF SUPERIOR COURT filed by the Defendant in this cause.
WITNESS my hand and official seal this the 21st day of May 2019.

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

Copy to:
Attorney General, For State of North Carolina
. Mr. John Edward Butler, Pro Se, For Butler, John Edward

SUPREME COURT OF NORTH CAROLINA
Amy Funderburk, Clerk
2 East Morgan Street
Post Office Box 2170
Raleigh, North Carolina 27602
(919) 831-5700
FAX: (919)831-5720

May 7, 2019
John E. Butler, #0059727
Orange Correctional Center
PO Box 1149
Hillsborough, NC 27278
Dear Mr. Butler:
The Clerk’s Office has received your letter dated April 24, 2019, concerning the status of
the petition for writ of certiorari filed on December 27, 2018, our docket number 629P01-7. A
copy is enclosed.
Your petition for writ of certiorari'to review order of the North Carolina Court of Appeals
was dismissed by this Court on March 27, 2019 (order enclosed). After conference, the Court
issues the rulings and informs the Clerk’s Office. The Court simply allows or denies the
appeal/petition without written explanation. We then prepare copies of the order and
distribute to the appropriate parties.
We hope this information is helpful to you.
Sincerely,
The Clerk’s Office

No. 629P01-7

SIXTEEN-B DISTRICT

Supreme Court of

Carolina

STATE OF NORTH CAROLINA
v
JOHN EDWARD BUTLER
From N.C. Court of Appeals
( P14-558 P15-886 P18-27 )
From Robeson

( 89CR22354 89CR22377 89CR18633 )

ORDER

Upon consideration of the petition filed by Defendant on the 27th of December 2018 in this matter for a writ.,--'
of certiorari to review the order of the Superior Court, Robeson County, the following order was entered and is *
' hereby certified to the Superior Court of that County:
"Dismissed by order of the Court in conference, this the 27th of March 2019."
s/ Earls, J.
For the Court
The following order has been entered on the motion filed on the 27th of December 2018 by Defendant to
Proceed In Forma Pauperis:
"Motion Allowed by order of the Court in conference, this the 27th of March 2019."
s/ Earls, J.
For the Court
The following order has been entered on the motion filed on the 27th of December 2018 by Defendant to
Appoint Counsel:
"Motion Dismissed as moot by order of the Court in conference, this the 27th of March 2019."
s/ Earls, J.
For the Court
WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 3rd day of April 2019.

Amy L Funderburk
Clerk, Supreme Court of North Carolina
M. C. HackneyL-''"Assistant CloM, Supreme Court Of North Carolina
Copy to:
North Carolina Court of Appeals
Mr. John Edward Butler, For Butler, John Edward
Ms. Kathleen N. Bolton, Assistant Attorney General, For State of N.C. - (By Email)
Mr. L. Johnson Britt, III, District Attorney
Flon. Shelena G. Smith, Clerk
West Publishing - (By Email)
Lexis-Nexis - (By Email)
-

No. 629P01-8

SIXTEEN-B DISTRICT

Supreme Court of JBortf) Carolina
STATE OF NORTH CAROLINA

v
JOHN EDWARD BUTLER
From N.C. Court of Appeals
( P14-558 P15-886 P18-27 )
From Robeson
( 89CR22354 89CR22377 89CR18633 )

ORDER

Upon consideration of the petition filed by Defendant on the 16th of May 2019 in this matter for a writ of
certiorari to review the order of the Superior Court, Robeson County, the following order was entered and is hereby
certified to the Superior Court of that County:
"Denied by order of the Court in conference, this the 20th of May 2019."
Davis, J. recused
s/ Earls, J.
For the Court
The following order has been entered on the motion filed on the 16th of May 2019 by Defendant to Proceed
In Forma Pauperis:
"Motion Allowed by order of the Court in conference, this the 20th of May 2019."
Davis, J. recused
s/ Earls, J.
For the Court
The following order has been entered on the motion filed on the 16th of May 2019 by Defendant to Appoint
Counsel:
"Motion Dismissed as moot by order of the Court in conference, this the 20th of May 2019."
Davis, J. recused
s/ Earls, J.
For the Court
Upon consideration of the petition filed by Defendant on the 16th of May 2019 in this matter for a writ of
mandamus, the following order was entered and is hereby certified to the Superior Court, Robeson County:

"Denied by order of the Court in conference, this the 20th of May 2019."
' Davis, J. recused
s/ Earls, J.
For the Court
WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 20th day of May 2019.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina

c

M. C. Hackneyt--Assistant ClerK, Supreme Court Of North Carolina
Copy to:
North Carolina Court of Appeals
Mr. John Edward Butler, For Butler, John Edward
Ms. Kathleen N. Bolton, Assistant Attorney General, For State of N.C. - (By Email)
Mr. L. Johnson Britt, III, District Attorney
Hon. Shelena G. Smith, Clerk
West Publishing - (By Email)
Lexis-Nexis - (By Email)

Additional material
from this filing is
available in the
Clerk's Office.

/p

